<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                  DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2016
=================================================================================

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                           ___________________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                    

                       TOM COLE, Oklahoma, Chairman

  MICHAEL K. SIMPSON, Idaho              ROSA L. DeLAURO, Connecticut
  STEVE WOMACK, Arkansas                 LUCILLE ROYBAL-ALLARD, California
  CHARLES J. FLEISCHMANN, Tennessee      BARBARA LEE, California
  ANDY HARRIS, Maryland                  CHAKA FATTAH, Pennsylvania
  MARTHA ROBY, Alabama
  CHARLES W. DENT, Pennsylvania
  E. SCOTT RIGELL, Virginia


  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, and Mrs. Lowey, as Ranking
 Minority Member of the Full Committee, are authorized to sit as Members of all Subcommittees.


                Susan Ross, John Bartrum, Allison Deters,
              Jennifer Cama, Justin Gibbons, and Lori Bias,
                            Subcommittee Staff
                             ______________

                                  PART 7

                        OUTSIDE WITNESS TESTIMONY
                        
                        
                        

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
                     



          Printed for the use of the Committee on Appropriations
                           ______________
                      
    
                    U.S. GOVERNMENT PUBLISHING OFFICE
  
    96-220                  WASHINGTON : 2015
    
    


 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey        NITA M. New York 
  ROBERT B. ADERHOLT, Alabama                MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                         PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                  JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                    DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                      LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                    SAM FARR, California
  TOM COLE, Oklahoma                         CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                 SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania              BARBARA LEE, California
  TOM GRAVES, Georgia                        MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                        BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                     STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                 TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                  C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee          DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington          HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                       CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California               MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                      DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                  William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
  
  
  
  
  
  
[NO TEXT AVAILABLE]
</pre></body></html>
